No.
IN THE
SUPREME COURT OF THE UNITED STATES
KIM LIPPARD AND BARRY LIPPARD,
Petitioners,
v.
LARRY HOLLEMAN AND ALAN HIX,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Julian H. Wright, Jr., a
member of the bar of this Court, hereby certify that the Petition for a Writ of
Certiorari contains 8,949 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
/s/ Julian H. Wright, Jr.
Julian H. Wright, Jr.
February 22, 2021

